                        United States Attorney Loretta E. Lynch
                             Eastern District of New York

  FOR IMMEDIATE RELEASE                                       CONTACT: ROBERT NARDOZA
  WEDNESDAY, JUNE 25, 2014                                    OFFICE: (718) 254-6323
  WWW.USDOJ.GOV/USAO/NYE

                        FOUR ARRESTED FOR D E F R A U D I N G
                      MORTGAGE LENDING INSTITUTIONS

      Mortgage Broker, Title Agent, Real Estate Appraiser, Attorney, Property Managers, and
               Others Conspired to Steal Funds in a Multi-Million Dollar Scheme

       BROOKLYN, NY – A six-count indictment was unsealed this morning in federal court in
Brooklyn charging mortgage broker Alex Barrett, property manager Barthelemy Adjavehoude, title
agent Michelle Baker, property manager and self-described foreclosure specialist James Bayfield,
and property managers Samuel Terrell Bell and Dirk Hall with engaging in a bank and wire fraud
conspiracy to steal millions of dollars from financial lending institutions. 1 Defendants
Adjavehoude, Baker, Bayfield, and Bell were arrested and will be arraigned this afternoon before
United States Magistrate Judge Lois Bloom at the United States Courthouse in Brooklyn, New
York. The defendants face penalties of up to 30 years’ imprisonment if convicted.

        The charges were announced by Loretta E. Lynch, United States Attorney for the
 Eastern District of New York; George Venizelos, Assistant Director-in-Charge, Federal Bureau
 of Investigation, New York Field Office (FBI); Michael Stephens, Acting Inspector General,
 Federal Housing Finance Agency, Office of Inspector General (FHFA-OIG); Christina
 Scaringi, Special Agent-in-Charge, Northeast Region, U.S. Department of Housing and Urban
 Development, Office of Inspector General (HUD-OIG); and Derek Evans, Special Agent-in-
 Charge, Federal Deposit Insurance Corporation-Office of Inspector General, New York
 Region.

        According to the indictments unsealed this morning, the defendants and other participants
in the scheme (“the conspirators”) caused mortgage loan applications with false information to be
submitted to lending institutions in connection with the purchase of residential properties located
within the Eastern District of New York. These applications contained fraudulently inflated
purchase prices and appraisals for the properties, as well as false information about the assets and
income of the purchasers of the properties, many of whom were being compensated as part of the

       1
         The charges announced today are merely allegations, and the defendants are presumed
innocent unless and until proven guilty. Previously, co-conspirators George Alderdice, an attorney,
and Sharif Rashed, an appraiser, pled guilty to conspiring to commit bank and wire fraud for their
respective participation in the scheme.
                                                 1
 scheme to act as straw purchasers. The conspirators also falsified HUD forms and provided false
 down payment checks to make it appear as if the straw purchasers and the other borrowers had
 made down payments in connection with the purchase of the properties, which was a condition of
 the lending institutions for issuing the mortgage loans.

         To carry out their scheme, the conspirators allegedly often conducted simultaneous
 purchases and sales of the properties, sometimes called “flips,” in an effort to conceal their
 criminal involvement and to inflate the value of the properties. For example, a conspirator would
 purchase a property from a homeowner. That same day, the conspirator would sell the property to
 a straw purchaser at an inflated value. The conspirators, through the use of backdated and falsified
 documents, concealed from the lending institutions the fact that the purchase and sale had occurred
 on the same day and made it appear as if the transaction between the homeowner and the
 conspirator had occurred over 60 days prior to the sale from the conspirator to the straw purchaser.

         As a result of the false applications and appraisals, the lending institutions were
 fraudulently induced to issue millions of dollars of mortgage loans secured by properties that had
 inflated appraisal values to individuals who had insufficient income and assets to qualify for the
 mortgage loan. In many instances, the straw purchasers and the other borrowers failed to make
 required mortgage payments to the lending institutions, which caused the mortgage loans to be
 placed into default status.

         At approximately the time of the closings of the properties, the conspirators diverted for
 their own use the portion of the loan proceeds that exceeded the actual value of the properties.
 The conspirators collectively caused the financial lending institutions to loan out over $5.5
 million, of which over $2.7 million was the conspirators’ profit from the scheme. The
 investigation identified at least 17 properties in the scheme, including locations in Cambria
 Heights, Far Rockaway, Brooklyn, Laurelton, Jackson Heights, Jamaica, Hempstead, Rosedale,
 and Hollis, New York.

         “Through a web of lies and false documentation, these real estate professionals allegedly
stole millions from banks, which they used to line their own pockets,” stated United States
Attorney Lynch. “The size and scope of the conspiracy were noteworthy, but the charges
announced today are the result of an even more impressive collaboration between all the agencies
that worked tirelessly to bring the defendants to account for these crimes. This is a clear message
to anyone who contemplates engaging in mortgage fraud: do not even attempt it because you will
be caught.”

         FBI Assistant Director-in-Charge Venizelos stated, “In an elaborate scheme between
brokers, appraisers, straw buyers, and others, it is alleged that these defendants conspired to shake
down and defraud banks. The scheme not only victimized those institutions, but millions of
consumers who either paid higher rates or could not get a loan.”

         HUD-OIG Special Agent-in-Charge Christina Scaringi stated, “The arrests and charges
announced today serve to remind the public that we will continue the important work of
investigating mortgage industry professionals who deceive and defraud homeowners, the Federal
Housing Administration, and mortgage lending institutions to satisfy their own personal
enrichment. As alleged, the conduct of these defendants is particularly troubling as it is yet another
reminder of the fraud and difficulties many endured in the aftermath of the recent housing crisis.
We wish to thank our law enforcement partners at the FBI, FHFA-OIG, FDIC-OIG, and the U.S.
                                                   2
Attorney's Office for their perseverance and steadfast efforts in ensuring these defendants are
brought to justice.”

          FDIC-OIG Special Agent-in-Charge Derek Evans stated, “The Federal Deposit Insurance
Corporation Office of Inspector General is committed to its partnerships with others in the law
enforcement community as we address mortgage fraud cases throughout the country. Today’s
arrests illustrate that the government is working to ensure integrity in the financial services and
housing industries and that those involved in criminal activities that undermine that integrity will be
held accountable if ultimately found guilty.”

         FHFA Acting Inspector General Michael Stephens stated, “As alleged, the individuals
charged in this scheme operated with impunity under the flawed belief that as industry insiders they
could better cover their tracks to avoid detection. However, as evidenced by today’s charges, no
fraudulent plan is foolproof. We are proud to have worked with our law enforcement partners and
will continue our collaborative efforts to bring those who cheat our financial institutions, and
ultimately American taxpayers, to justice.”

       The government’s case is being prosecuted by Assistant United States Attorney Walter
 M. Norkin.

         This case was brought in coordination with President Barack Obama’s Financial Fraud
 Enforcement Task Force. President Obama established the interagency task force to wage an
 aggressive, coordinated, and proactive effort to investigate and prosecute financial crimes. The
 task force includes representatives from a broad range of federal agencies, regulatory authorities,
 inspectors general, and state and local law enforcement who, working together, bring to bear a
 powerful array of criminal and civil enforcement resources. The task force is working to improve
 efforts across the federal executive branch, and with state and local partners, to investigate and
 prosecute significant financial crimes, ensure just and effective punishment for those who
 perpetrate financial crimes, combat discrimination in the lending and financial markets, and
 recover proceeds for victims of financial crimes.

 The Defendants:
ALEX BARRETT
Age: 47
Residence: Farmingville, New York

BARTHELEMY ADJAVEHOUDE
Age: 54
Residence: Baldwin, New York

GEORGE ALDERDICE
Age: 42
Residence: Manhasset, New York

MICHELLE BAKER
Age: 47
Residence: Jamaica, New York

                                                  3
JAMES BAYFIELD
Age: 42
Residence: Jamaica, New York
SAMUEL TERRELL BELL
Age: 33
Residence: North Babylon, New York

DIRK HALL
Age: 39
Residence: Jamaica, New York

SHARIF RASHED
Age: 32
Residence: Jamaica, New York




                                     4
